   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




            National Telecommunications
          and Information Administration



    NTIA Has an Established Foundation
           to Oversee BTOP Awards, But
Better Execution of Monitoring Is Needed

                     Final Report No. OIG-12-013-A
                                November 17, 2011




                 FOR PUBLIC RELEASE



                          Office of Audit and Evaluation
                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General
                                                               Washington, D.C. 20230

November 17,2011

MEMORANDUM FOR:               Lawrence E. Strickling
                              Assistant Secretary for Communications and Information
                              National Telecommunications and Information Administration


FROM:                         Ann C.  Eilers ~'*"-       t £:/t¥5
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      NTIA Has an Established Foundation to Oversee BTOP Awards,
                              But Better Execution of Monitoring Is Needed
                              Final Report No. OIG-12-013-A


This memorandum provides our final audit report on the effectiveness of the BTOP monitoring
process and NTIA's use of monitoring results to manage and strengthen BTOP. The objectives
of our audit were to (1) assess the reasonableness of assigned monitoring levels and
corresponding monitoring activities; (2) evaluate the effectiveness of desk reviews; (3) assess the
adequacy of site visits; and (4) evaluate the effectiveness of the processes in place to adjust
monitoring levels for specific recipients.

Our report describes weaknesses and recommends steps to improve the controls over monitoring
tools and the execution of monitoring activities. NTIA has already taken steps to establish a
comprehensive BTOP award oversight framework that includes establishing monitoring levels,
performing reviews and site visits, and adjusting initial monitoring level baselines. However, we
also identify improvements needed to strengthen the utilization of monitoring tools;
documentation of monitoring activities, recipient site visits, and match review processes; and the
effectiveness of monitoring level adjustments.

Your November 3 response to our draft report stated that NTIA is taking every appropriate
action to address recommendations, subject to NTIA's funding limitations under the continuing
resolution. Also, it summarizes steps being taken to address the recommendations. Where
appropriate, we have modified this final report based on this response and discussions with
NTIA leadership subsequent to the issuance of the draft report. The formal NTIA response is
included as an appendix. The final report will be posted on the OIG's website pursuant to section
8L of the Inspector General Act of 1978, as amended.

In accordance with the Department Administrative Order 213-5, within 60 days of the date of
this memorandum, please provide us with an action plan that responds to all of the report
recommendations.

We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to Chris Rose, Senior Auditor, Recovery
Act Task Force, at (202) 482-5558, or Katie McKevitt, Project Lead, Recovery Act Task Force,
at (202) 482-0264, and refer to the repmt title in all correspondence.

Attachment

cc: 	   Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
        Kathy Smith, Chief Counsel, NTIA
        Anthony Wilhelm, Deputy Associate Administrator, Infrastructure Division, Office of
         Telecommunications and Information Applications, NTIA
                                     Report In Brief
                                         U.S. Department of Commerce Office of Inspector General
                                                                November 17, 2011

                                         National Telecommunications and Information Administration
Why We Did This Review
This report is part of OIG’s con-        NTIA Has an Established Foundation to Oversee BTOP
tinued oversight of the $7.9 billion
in funds received by five Depart-
                                         Awards, But Better Execution of Monitoring Is Needed
                                         (OIG-12-013-A)
ment of Commerce agencies (plus
OIG) under the American Recov-
ery and Reinvestment Act of 2009         What We Found
(the Recovery Act).
This review of the Broadband           NTIA has taken steps to establish a comprehensive BTOP award oversight framework that in-
Technology Opportunities
                                       cludes establishing monitoring levels, performing reviews and site visits, and adjusting initial
Program (BTOP) focused on the
effectiveness of National Tele-
                                       monitoring level baselines. However, we also identify improvements to strengthen:
communications and Information             •	   The	utilization	of	monitoring	tools	and	effectiveness	of	monitoring	level	adjustments.
Administration’s (NTIA’s) award                 We found that program report reviews rely on information reported by grant recipients
monitoring process—and its use                  without any independent verification. Desk reviews address major areas but leave open
of monitoring results to manage                 important outstanding follow-up items. Site visits currently are inconsistently executed.
and strengthen BTOP.
                                                While NTIA’s approach to establishing monitoring levels was reasonable, monitoring-
                                                levels have not been revised based on desk reviews and site visits.
Background                                 •	   Recipient	match	review	process. We identified that NTIA’s match review process does
                                                not include the verification of match sources or claimed amounts—and cannot guaran-
From the time the President signed              tee that recipients spend federal funds in accordance with federal regulations.
the Recovery Act into law, OIG
has provided oversight of NTIA’s      •	 Tracking	projects	at	risk	of	meeting	three-year	completion	deadline	and	initiating	a	
administration of the approxi-            formal	trend	analysis.We found several BTOP projects are at risk of meeting comple-
mate $4.5 billion BTOP and will           tion requirements and NTIA needs to continue to work with recipients to meet those
continue to do so throughout the          dates. A trend analysis, which NTIA has undertaken since our initial suggestion, will
remainder of the grant program life       help proactively identify potential issues that could impede project progress.
cycle. Now that BTOP has award-
ed all grants, NTIA faces challeng-   •	 Maximize	monitoring	resources. Our review identified that while NTIA has developed
es in overseeing a diverse award          a reasonable framework for award monitoring, given current budgetary factors, NTIA
portfolio. Their fiscal year (FY)         must develop alternative monitoring strategies. Implementing recommendations in the
2011 BTOP Monitoring and As-              report will help NTIA maximize the use of its resources.
sessment Plan establishes NTIA’s
guiding principles for monitoring
and assessing BTOP awards. The
plan explains the processes for
establishing and revising monitor-  What We Recommended
ing levels—as well as for ensuring
improved project performance and We recommend that NTIA:
compliance with grant terms and
conditions—and the tools used to
                                     •		 strengthen the federal program officers’ monitoring efforts.
monitor the award.                   •		 verify source documentation into its current monitoring efforts.
Our report describes weaknesses           •		 strengthen its monitoring tools’ internal control capabilities.
and recommends steps to improve
the controls over monitoring tools        •		 prepare recipient match documentation guidance for FPO use during site visits.
and the execution of monitoring           •		 work with recipients at risk of not meeting award progress and completion require-
activities.                                   ments and develop an action plan and alternative strategies for those awards that will
                                              not satisfy award terms.
                                          •		 incorporate continuous trend analysis activities into its award monitoring process.
                                          •		 identify oversight strategies for different funding levels.
U.S. Department of Commerce                                                                                                    Final Report

Office of Inspector General                                                                                               November 17, 2011 



                                                                 Contents

Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 4 

   I.    NTIA Needs to Strengthen Its Initial and Follow-Up Monitoring Activities ...................... 4 

   II. NTIA Needs to Bolster Its Data Integrity Internal Controls ................................................ 8 

   III. NTIA Needs Continued Improvement over Its Recipient Match Review Processes ........... 9 

   IV. NTIA Must Develop a Strategy for Tracking Projects that Risk Missing the Three-Year 

       Completion Deadline .......................................................................................................... 11 

   V. NTIA Needs to Initiate a Formal Trend Analysis Process for Its Grant Portfolio ............. 12 

   VI. NTIA Needs to Maximize the Resources It Receives for Monitoring BTOP Awards ...... 13 

Other Issues................................................................................................................................... 15 

Summary of Agency Comments and OIG Response .................................................................... 16 

Appendix A: Objective, Scope, and Methodology ....................................................................... 17 

Appendix B: Overview of BTOP Monitoring Model ................................................................... 19 

Appendix C: Response to OIG’s Draft Report ............................................................................. 20 

U.S. Department of Commerce                                                                                                           Final Report


Office of Inspector General                                                                                                      November 17, 2011 




                                                                          Introduction
From the time the President signed the American Recovery and Reinvestment Act of 2009 1 (the
Recovery Act) into law, OIG has provided oversight of NTIA’s administration of the $4.4 2
billion Broadband Technology Opportunities Program
(BTOP) and will continue to do so throughout the
remainder of the grant program life cycle. The               OIG’s Proactive BTOP Oversight 
Department of Commerce (DOC) Inspector General (IG),        •		 Providing NTIA guidance on 
in his February 2011 testimony before the House                 establishing controls 
Committee on Energy and Commerce, Subcommittee on
                                                            •		 Participating in funding 
Communications and Technology, on broadband
                                                                workshops 
spending, focused on the need for effective award
monitoring and oversight. As we continue our NTIA           •		 Briefing potential applicants on 
oversight efforts, we anticipate expanding our efforts to       Recovery Act requirements 
include additional detailed reviews of complaints,          •		 Conducting post‐award 
allegations, and grants administration of specific              workshops on fraud prevention 
recipients. Table 1 delineates $3.9 billion in BTOP funded      and other issues 
projects that are ongoing and scheduled to be completed
over the next two years.

                            Table 1. Required Completion Date for BTOP Projects
 

                   Expiration1                                       Award Value                    CCI2         SBA3         PCC4         Total 
                   November 2012                               $               63,831,799             2            2           4             8 
                   December 2012                                                70,689,472            2            1           2             5 
                   January 2013                                               614,058,561            25            3           11           39 
                   February 2013                                              211,650,411             7            6           3            16 
                   March 2013                                                 114,657,708             8            1           0             9 
                   June 2013                                                  440,419,917            18            0           11           29 
                   July 2013                                              1,463,892,298              43           10           15           68 
                   August 2013                                                863,948,374            16           14           12           42 
                   September 2013                                               46,204,251            0            7           7            14 
                                                        $               3,889,352,791               121           44           65           230 
         1 
              Recipients must complete all projects within three years of award issuance.

                                             
         2 
              Comprehensive Community Infrastructure (CCI)

                                                                            
         3
          Sustainable Broadband Adoption (SBA)

                                                                                        
         4
          Public Computer Centers (PCC)

                                                                                               
         Source: OIG, derived from operating unit data                                                                                  

                                                            
1
 Pub. L. No. 111-5.
 

2
 The Recovery Act established BTOP with $4.7 billion, including administration and oversight expenses. A $302


million rescission occurred in August 2010 pursuant to Pub. L. No. 111-226, reducing the total funding. In all, 

BTOP awarded $3.9 billion in grants. The remaining funding went to develop and update the publicly searchable 

National Broadband Map, administrative expenses, and transfers to the OIG for oversight and the Federal


Communications Commission for the development of a national broadband plan.




                                                                                     1
 

U.S. Department of Commerce                                                                  Final Report


Office of Inspector General                                                             November 17, 2011 



Now that BTOP has awarded all grants, NTIA faces challenges in overseeing a diverse award
portfolio:

       •		 BTOP award recipients include public entities, for-profits, nonprofits, and tribal entities;
           this is the first time that NTIA has made awards to for-profit companies, which represent
           almost 25 percent of BTOP awards. Also, awards differ in terms of recipient experience
           in administering federal awards, as well as their need to satisfy special award conditions
           (such as environmental assessments). In fact, of the 230 awards made as of September
           30, 2010, (representing nearly $3.9 billion in BTOP awards), 118 require completed
           environmental assessments before further project progress is permitted. During a June
           2011 quarterly management meeting, NTIA identified that environmental assessments
           would take up to six months to complete; many have taken longer. As of September 30,
           2011, 12 award recipients still had outstanding environmental assessments or
           consultation special awards, totaling approximately $500 million in federal funds.

       •		 BTOP projects are on a defined schedule for completion—requiring full completion
           within 3 years (see table 1). The spending will require NTIA’s close monitoring: as of
           September 8, 2011, NTIA officials reported that recipients had drawn down $729 million,
           representing only about 19% of total funds.

       •		 NTIA needs to maintain a program office with sufficient resources for effective oversight
           of these awards. Sufficient NTIA staff in terms of numbers and training, as well as
           contractor support, is essential in establishing and monitoring the program. NTIA’s
           oversight processes need to match the resources provided to oversee the awards.
The January 31, 2011, fiscal year (FY) 2011 BTOP Monitoring and Assessment Plan establishes
NTIA’s guiding principles for monitoring and assessing BTOP awards. The plan explains the
processes for establishing and revising monitoring levels—as well as for ensuring improved
project performance and compliance with grant terms and conditions—and the tools used to
monitor the award. The plan details three monitoring strategies—report reviews, desk reviews
and site visits—and explains how NTIA will coordinate their use with the established monitoring
levels.
In addition, the Federal Program Officer (FPO) handbook provides further guidance for FPOs to
follow when monitoring BTOP awards. The handbook provides reasonable guidance on a variety
of topics, including grants management and administration, recipient reporting and award
monitoring, compliance and environmental requirements, to document management. The BTOP
FPO Handbook “is intended to supplement the existing DOC Updated Interim Grants Manual . . .
and other Departmental Administrative Orders and Federal Circulars by providing clarification
on the specific responsibilities of the FPO and the BTOP Program Office.” 3
Our review of BTOP award monitoring assessed the effectiveness of the monitoring process and
NTIA’s use of monitoring results to manage and strengthen the BTOP program and included the
following objectives:

                                                            
3
 Broadband Technology Opportunities Program, December 2010. Federal Program Officer Handbook, Version 2.0.
Washington, DC: National Telecommunication and Information Administration, 1.


                                                               2
 

U.S. Department of Commerce                                                            Final Report


Office of Inspector General                                                       November 17, 2011 



   (1) Assess the reasonableness of assigned monitoring levels and corresponding monitoring
       activities;
   (2) Evaluate the effectiveness of desk reviews;
   (3) Assess the adequacy of site visits; and
   (4) Evaluate the effectiveness of the processes in place to adjust monitoring levels for
       specific recipients.
See appendix A for a detailed summary of our audit’s objectives, scope, and methodology.




                                                 3
 

U.S. Department of Commerce                                                                    Final Report


Office of Inspector General                                                               November 17, 2011 



                                                           Findings and Recommendations
NTIA has taken steps to establish comprehensive policies and procedures to provide oversight of
its BTOP awards. We found that—while NTIA’s approach to establishing monitoring levels was
reasonable—desk reviews had limitations, site visits need to be strengthened, and monitoring
levels have not been revised based on desk reviews and site visits. The execution of BTOP
policies and procedures lacks the rigor and depth necessary to be most effective.
More specifically, NTIA needs to:
      I.       strengthen its initial and follow-up monitoring activities;
     II.       bolster its data integrity internal controls;
    III.		     continue to improve its recipient match review processes;
    IV.		      develop a strategy for tracking projects that risk missing the three -year completion 

               deadline; 

     V.        initiate a formal trend analysis process for its grant portfolio; and
    VI.		      maximize the resources it receives for monitoring BTOP awards.
The agency will need to improve execution of its monitoring plan to meet the multiple
challenges it will face throughout the remainder of the grant life cycle—particularly with high-
risk awards. High-risk awards typically exceed $50 million, pose significant technical
challenges, and require significant construction/deployment in the last quarters of the grant
term. 4
OIG has continually met with NTIA officials throughout the audit to share observations,
comments, and recommendations. A detailed discussion of our findings and recommendations
follows.

I. 	          NTIA Needs to Strengthen Its Initial and Follow-Up Monitoring Activities

Monitoring performance helps NTIA ensure that grantees meet program- and award-specific
goals (by addressing potential problems early) and complete required deliverables. We found
that NTIA has taken many steps to establish a monitoring process for its BTOP awards,
including:

        •		 Developing an assessment and monitoring plan, and providing training to NTIA staff on
            grant monitoring;

        •		 Completing initial desk reviews (e.g., using performance and financial reports to evaluate
            the grant recipients’ understanding of, and ability to comply with, federal and program
            regulations),

                                                            
4
 National Telecommunications and Information Administration, 2010. BTOP Risk Assessment Tool. Washington,
DC: BTOP, 4.


                                                                        4
 

U.S. Department of Commerce                                                                       Final Report


Office of Inspector General                                                                  November 17, 2011 



       •      Establishing baseline monitoring levels;

       •      Resetting some initial monitoring levels based on management level staff review; and

       •      Initiating site visits of the higher-risk awards within their portfolio.
NTIA staff also developed a checklist for each site visit—with mostly standardized questions
across all grants and additional questions for grant recipients with specific issues, such as
compliance or special award conditions. NTIA management also developed a method for
prioritizing site visits based on monitoring levels. After each site visit, NTIA creates a site visit
report, outlining the progress of the project, and modifies monitoring levels based on information
gleaned from the site visit (see appendix B for an overview of BTOP’s monitoring plan).
However, improvements are needed to ensure that NTIA’s site visit process is a more efficient
and effective use of resources. Site visits represent one component of NTIA’s multifaceted
monitoring effort that also includes reviews of program reports and desk reviews. As another
department’s OIG states in its grants management guidance, “[G]ranting agencies should
increase their monitoring of grantees and subgrantees by increasing site visits and reviewing
financial and progress reports for accuracy, completeness, and alignment with project goals. . . .
[G]rant managers should periodically require the submission of supporting documentation so
reported expenditures and achievements can be verified.” 5 This guidance is important, as some
FPOs are responsible for more than 20 awards.
With $19.8 million in its approved FY 2011 budget allocated for program oversight and
contractor support services, NTIA developed its current monitoring model. Now NTIA must
adapt monitoring activities to maximize results, as current processes do not reflect the most
efficient and effective use of resources. Table 2 highlights problems that we found with the
execution of NTIA’s monitoring efforts.
Effective monitoring activities would require a combination of effective planning, replicable
processes, and rigor in the execution of report reviews, desk reviews, and site visits on NTIA’s
behalf. In particular, it should streamline site visits to allow for increased opportunities for
verification of source documentation and transactions. Additionally, NTIA should revise primary
monitoring tools to improve efficiency and effectiveness, as well as ensure equitable oversight of
grant funds. Incorporating other complementary monitoring techniques would enable NTIA to
identify and address grant-related issues proactively as they arise (see table 2 for specific
examples). The current BTOP monitoring process could benefit from other adjustments as well,
to include: increased verification of source documentation and systems, detailed review of
nonfederal match, 6 and increased consistency in the use of monitoring tools and execution of
monitoring activities.




                                                            
5
  U.S. Department of Justice Office of Inspector General, February 2009. Improving the Grant Management


Process. Washington, DC: Department of Justice OIG, 4, 5.


6
  BTOP recipients must provide at least 20% of total project costs from nonfederal sources.

 


                                                               5
 

U.S. Department of Commerce                                                           Final Report


Office of Inspector General                                                      November 17, 2011 



              Table 2. Specific Finding Examples—Monitoring Activities

Monitoring
                                                          Finding
Component
                                • One recipient failed to disclose the lack of a subrecipient
                                  monitoring plan that outlined recipient and subrecipient roles
Program Report
                                  and responsibilities; this was not discovered until the
Reviews                           recipient’s April 2011 site visit. The lack of a subrecipient
                                  monitoring plan contributed to project delays.
                                • One recipient’s desk review identified 24 outstanding items.
                                  These items included verifying the existence of a
                                  subrecipient monitoring plan to confirm the recipient’s
Desk Reviews                      accounting systems.
                                • Another recipient’s desk review contained 14 unresolved
                                  items, including guidelines and mechanisms for tracking and
                                  reporting matching funds.
                                • Site Visit Checklist questions and document requests may
                                  or may not exist in advance. Of further concern:
                                       o Some FPOs strictly adhere to the checklist
                                            questionnaire; others deviate from the checklist.
                                            One FPO did not review the recipient’s accounting
                                            system even when offered.
                                       o Many standard checklist questions overlap,
                                            particularly with the financial management and
                                            grants management sections.
                                       o The checklist is too long and does not allow
                                            adequate time to verify source documentation and
                                            systems.
                                • Site visits did not consistently review, test, and verify
Site Visits                        compliance with bonding requirements or procurement and
                                   financial policies.
                                • The two-day (intermediate risk) and three-day (advanced
                                   risk) site visit timeframes may not be adequate. Site visits of
                                   higher-risk awards should be longer.
                                • There was no discernable difference in the site visit process
                                   after the May 3, 2011, preliminary briefing by OIG (in which
                                   we verbally provided observations regarding the
                                   effectiveness and efficiency of site visits). At the briefing,
                                   OIG also discussed the redundancy of the site visit
                                   checklist, the lack of time allotted to verify the existence of
                                   source documents and limited time frame allotted to
                                   conduct site visits.

Source: OIG

   A. Program Report Reviews, or performance progress reports, rely upon information
      reported by grant recipients without any independent verification. However, the report
      format does not contain the level of detail necessary to identify ongoing or current issues




                                                6
 

U.S. Department of Commerce                                                                            Final Report


Office of Inspector General                                                                       November 17, 2011 



              that could negatively impact the grant award as indicated in table 2. Issues may not
              emerge until the recipient receives a more detailed review, such as a site visit.
       B. 	 Desk Reviews address seven major areas, ranging from special award conditions to
            procurement management. The desk review consists of a series of questions to grants
            management staff related to the recipient and the recipient’s grants management
            infrastructure. Our examination of completed desk reviews identified numerous
            unresolved grant management items categorized by NTIA as “requiring follow-up.” We
            selected 22 out of 96 follow-up items identified from nine desk reviews containing
            outstanding follow-up items. 7 When asked to provide the final disposition of those
            follow-up items, NTIA was unable to determine how those issues were resolved.
            Examples of outstanding follow-up items included: guidelines for matching funds,
            procurement procedures, and verification of accounting systems.
       C. 	 Site Visits currently are inconsistently executed. NTIA’s FY 2011 assessment and
            monitoring plans state that a benefit of site visits “is that potential areas of concern can be
            corrected immediately on-site.” Furthermore, it states that site visits “will be guided by a
            standardized agenda and checklist of review items.” We observed seven initial-round site
            visits of NTIA’s highest-risk awards. NTIA executed the site visit preparation (and site
            visits themselves) in an inconsistent manner that varied greatly depending on the FPO
            and staff who attended as indicated in table 2 on the previous page. In addition, the
            current site visit process lacks the depth of a consistent verification of source
            documentation, and verification of key elements—such as bonding requirements and
            financial and procurement transactions—to make it more effective as a monitoring tool.
These deficiencies resulted in unreliable outcomes. For example, OIG found that one recipient
undergoing a site visit during our field work developed multiple grant management issues,
despite having a generally positive site visit report. The recipient site visit occurred early in the
award monitoring process, and NTIA staff did not find any major concerns, either in the initial
desk review or during the site visit. Subsequently, several issues regarding the governance
structure of the recipient and concerns about the contract mechanism for administering the grant
were identified. NTIA initiated actions to address these concerns, while the OIG conducted a site
visit to the same recipient. From our review of documentation, transactions, and interviews, we
believe these issues should have been addressed sooner.
At this report’s issuance, NTIA has not revised recipient monitoring levels based on the results
of desk reviews and site visits. As such, OIG is unable to comment on the effectiveness of
monitoring level adjustments, pending additional data for review.




                                                            
7
    OIG judgmentally selected the 9 desk reviews from a universe of 230 completed desk reviews.


                                                               7
 

U.S. Department of Commerce                                                               Final Report


Office of Inspector General                                                          November 17, 2011 



Recommendations
We recommend that NTIA
         1.		 Take prompt steps to strengthen the FPOs’ monitoring efforts that include the
              following:
                 a.		 Revise the FPO handbook to provide guidance for performing due diligence
                      on recipient information that seems inconsistent with knowledge of the
                      project.
                 b.		 Revise the FPO handbook informing FPOs on the importance of following up
                      on unresolved issues.
                 c.		 Streamline the site visit checklist to minimize redundancy and provide
                      additional time to perform onsite inspection of project progress and
                      verification of source documents.
                 d.		 Conduct a training session or workshop for FPOs on revised and augmented
                      procedures to ensure consistency in the use of monitoring tools and execution
                      of monitoring activities.
      2.		 Develop and incorporate procedures to verify source documentation into its current
           monitoring efforts to verify grant-related activities such as competitive procurement
           processes and financial transactions and recipient match.
II.      NTIA Needs to Bolster Its Data Integrity Internal Controls

The 2005 Guide to Opportunities for Improving Grant Accountability issued by the Domestic
Working Group Grant Accountability Project sponsored by the Comptroller General of the
United States with participation by federal, state, and local audit organizations, states
“[o]rganizations that award . . . grants need good internal control systems to ensure that funds are
properly used and achieve intended results.” The Guide also states that “[h]aving regulations and
internal operating procedures in place prior to awarding grants enables agencies to set clear
expectations.” Based on our review of information system tools NTIA uses to manage grant
recipient issues and internal records, we determined that these tools do not incorporate adequate
internal controls to manage issues effectively and consistently.
A lack of adequate controls can lead to delays in addressing grant recipient concerns and
managing issues in the absence of other NTIA staff members. NTIA uses four internal
information system tools to manage BTOP information: the Post Award Management (PAM)
system, the Management Dashboard Tool (MDT), the Customer Service Management (CSM)
tool, and the Post Award Records Site (PARS) tool (see table 3).




                                                   8
 

U.S. Department of Commerce                                                              Final Report


Office of Inspector General                                                         November 17, 2011 



                                 Table 3. NTIA Monitoring Tools
BTOP system                                               Description

                        •   allows BTOP recipients to submit, for NTIA’s review, program
Post Award                  information including quarterly reports, annual reports, and federal
Management                  financial reports (FFRs)
System (PAM)            •   interacts with NOAA’s Grants Online (GOL) system and exchanges
                            reports for infrastructure/CCI projects
Management              •   enables management to view award information alongside financial
Dashboard Tool              and geographic information to access a panoramic view of the BTOP
(MDT)                       awards portfolio
                        •   tracks manually logged, customer-input issues while allowing NTIA
                            staff to input recipient issues
Customer                •   affords management and compliance staff access with the ability to
Service                     edit and modify inputs
Management
(CSM) tool              •   places corrective action plans alongside issue files, as well as any
                            relevant grant or program files, to put issues into context
                        •   operates independently of the other program systems
                        •   enables BTOP collaboration among NTIA program officers and Booz
                            Allen Hamilton (BAH) contractor grants coordinators
Post Award
                        •   stores interim documents and match matrices, for analyzing nonfederal
Records Site
                            match sources for grants
(PARS)
                        •   sorts information and retrieves documents for environmental
                            assessments or baseline reports
Source: NTIA

       CSM Lacks Adequate Internal Controls over Data Integrity. CSM—a tool for managing
       larger issues concerning other federal agencies or multiple offices—is useful for tracking
       high-level issues. NTIA should create a protocol for managing information and uploading
       documentation into CSM. For example, NTIA could establish a consistent file-naming
       convention to designate what information is pertinent to the issue.
NTIA staff indicated that they could not add additional controls and functionality for CSM
without prohibitive cost, due to capped administrative costs. Funding and resource limitations
notwithstanding, NTIA must ensure the proper protocols for mitigating any risk of lost
information are in place.
Recommendation
We recommend that NTIA strengthen its monitoring tools’ internal control capabilities by
creating a protocol for the use of the CSM tool to establish a consistent file-naming convention.

III.      NTIA Needs Continued Improvement over Its Recipient Match Review Processes

NTIA’s match review process does not include the verification of match sources or claimed
amounts. Both of the BTOP Notices of Funds Availability (NOFAs) require that grant recipients


                                                   9
 

U.S. Department of Commerce                                                                        Final Report


Office of Inspector General                                                                   November 17, 2011 



provide at least 20% of total project costs in nonfederal matching sources, either in cash or
through in-kind contributions. As such, NTIA is responsible for ensuring that grant recipients
expend federal funds in accordance with the committed matching funds. Based on OIG’s inquiry,
both in this audit and other reviews, we determined that NTIA must improve the match review
process for the program. Without a robust approach to verifying match, NTIA cannot guarantee
that recipients spend federal funds in accordance with federal regulations.
As part of the review of NTIA’s match review process, OIG auditors completed a site visit and
match review of a recipient. During the review, OIG auditors noted inconsistencies between the
match matrix (an outline of match source and spending) provided by NTIA and the formal
request for budget modification that the recipient submitted for NTIA review and approval. For
this grant recipient in particular, detailed descriptions of professional in-kind services differed.
Additionally, the OIG auditors compared the recipient’s financial records to the recipient’s
quarterly financial reporting and found $114,251 in reported match expenditures. However, the
recipient’s line item detail only supported $54,046—creating a difference of $60,205, or roughly
53% less than the reported amount. As the reported matching share was higher than
documentation supported, the recipient was able to draw down more federal funds than it was
entitled to. FPOs reviewed the quarterly reporting and completed a site visit prior to the OIG
visit; nonetheless, they did not discover the reporting issue. NTIA’s match review process would
provide more effective oversight if FPOs compared the quarterly financial report with actual
grant or match spending to check the accuracy and completeness of grantees’ financial reporting.
The ability to meet nonfederal match requirements is a concern for Congress. On February 9,
2011, the DOC IG testified to Congress about the need for NTIA to monitor nonfederal
matching. In March 2011, OIG wrote to NTIA in an effort to determine whether BTOP grantees
were able to meet their match requirements; in the letter, the IG expressed his belief that
“matching funds [are] a high-risk area for BTOP.” We were told that NTIA piloted a match
matrix review of infrastructure awards in January 2011 to assess the accuracy of match claims
made by recipients. NTIA’s June 2011 Quarterly Management Review report indicated 120 of
152 (or 79%) planned match matrices had been completed.
While NTIA staff stated that they anticipated the independent auditors would review the
matching requirements as part of the annual single audit, OIG found that not all grant recipients
would have their match tested. Of those entities that have filed single audit reports in prior years,
44 entities have grant awards below the level that would make it likely that the program would
be tested as a major program. 8 If the NTIA award is not considered a major program it is
unlikely that the matching share requirement will get tested during the course of the single audit.

Recommendation

We recommend that NTIA prepare guidance for FPOs to use in their review of recipient match
documentation during the site visit process.


                                                            
8
 Office of Management and Budget (OMB) Circular A-133 places the responsibility for identifying major programs
on the auditor and it provides criteria in Section .520 for applying a risk-based approach to the determination of
which programs are higher-risk programs and therefore considered major programs.


                                                               10
 

U.S. Department of Commerce                                                           Final Report


Office of Inspector General                                                      November 17, 2011 



IV. NTIA Must Develop a Strategy for Tracking Projects that Risk Missing the Three-Year
    Completion Deadline

The first BTOP NOFA states that projects must be “finished within three years of the date of
award.” The second NOFA contains similar language stating these deadlines. Based on both
information received from NTIA and through OIG site visits, we are concerned recipients risk
not meeting the program requirement for providing the expected project benefits within the three
year time frame.
Infrastructure construction projects are among the highest risk for missing the three–year
deadline. Of the seven site visits that OIG attended, four of them were broadband infrastructure
construction projects; of those, all four are behind schedule. Seventy-five percent experienced
issues with environmental assessment, while 50 percent experienced issues with subrecipients.
(See table 4, which lists grants behind schedule and the reason for delays.) The recipients listed
above represent over $460 million in federal funds granted, or roughly 13% of BTOP funds used
toward grant awards. Therefore, NTIA must develop a strategy for ensuring that grant recipients
complete their projects within the three-year time frame or establish a process for determining
the appropriateness of no-cost extensions to projects or risk ending the program without
completed construction work.
               Table 4. Reasons for Broadband Projects at Highest Risk
                       of Not Satisfying Three-Year Requirement
                         Issues with       Issues with                  Behind
                                                           Issues with
                        environmental      governance                   completion
                                                          subrecipients
                        assessments         structure                   schedule
          Recipient A         3                 3               3           3
          Recipient B         3                                 3           3
          Recipient C         3                                             3
          Recipient D                           3                           3
         Source: OIG

At the current rate of progress, several BTOP projects are in jeopardy of failing to comply with
the completion requirements of their awards. During a June 28, 2011, quarterly management
review with BAH, contractor staff stated that, when accounting for delays in clearing
environmental assessments (EAs), approximately 25% of grants have no slack in their project
timelines and approximately 15% of the grants have “negative slack” (i.e., several project
timelines may not finish in the appropriate time frame without significant changes). In addition,
as of August 31, 2011, 12 recipients still had not completed EAs. EAs must conclude before any
ground-disturbing activity can commence; the inability to complete EAs in a timely fashion
could leave federal dollars unspent and construction work at risk of not being completed.
Also, we found examples in which projects were plagued by issues associated with governance
structure and subrecipient monitoring (see finding I).




                                                11
 

U.S. Department of Commerce                                                                    Final Report


Office of Inspector General                                                               November 17, 2011 



Recommendations
We recommend that NTIA
       1.		 Work with recipients at risk of failing to comply with the awards’ progress and
            completion requirements to develop an action plan outlining revised completion dates
            that can be met; and
       2.		 Develop alternative strategies for those awards that will not satisfy their award terms—
            possibly including project extensions or rescoping of projects.
V.            NTIA Needs to Initiate a Formal Trend Analysis Process for Its Grant Portfolio

NTIA does not have a formal trend analysis process in place to identify potential issues
proactively within its grant portfolio. Effective management controls include having “[m]anagers
at all activity levels review performance reports, analyze trends, and measure results against
targets.” 9 Before completing a formal trend analysis, NTIA management could utilize interim
information obtained through ongoing trend analysis. This information can prompt timely and
appropriate modifications to monitoring activities, to help NTIA address trends as they arise. If
several recipients have experienced issues in the area of procurement, for example, NTIA
management could assign resources to the procurement arena. Then NTIA could share resolution
of that issue with NTIA staff and other recipients as a best practice. As NTIA does not expect
initial site visits to conclude until mid-FY 2012, however, its management lacks the ability to
identify and collect indicators necessary to identify developing trends.
Without ongoing and interim analysis, NTIA may forgo opportunities to identify and address
trends and risks as they arise. During fieldwork, NTIA staff stated that they plan to conduct a
formal trend analysis upon completing all site visits. Waiting until then to conduct a trend
analysis greatly limits NTIA‘s ability to make timely monitoring adjustments. As a result of site
visit observations and analysis of available documentation OIG has already identified several
potential trends, including:

        •		 Concerns with the recipient match validation and verification processes;

        •		 Project delays related to EAs, primarily affecting CCI awards;

        •		 Project delays resulting from the establishment of partnerships and agreements among
            recipients with multiple participants; and

        •		 Projects that may be at risk of not meeting their grant terms.
Recommendation
We recommend that NTIA incorporate continuous trend analysis activities, using interim
information, into its award monitoring process.


                                                            
9
 U.S. Government Accountability Office, August 2001. Internal Control Management and Evaluation Tool.
Washington, DC: GAO, 35. 


                                                               12
 

U.S. Department of Commerce                                                                Final Report


Office of Inspector General                                                           November 17, 2011 



VI.      NTIA Needs to Maximize the Resources It Receives for Monitoring BTOP Awards

NTIA’s approved FY 2011 budget for BTOP was approximately $19.8 million total. The
pending FY 2012 House appropriations bill would provide $19.9 million for BTOP oversight.
This includes approximately the same amount of funding for BTOP oversight as it had in FY
2011. However, according to NTIA, it will need $14 million to maintain its current level of
contractor-supported services throughout the remainder of the fiscal year and follow-on support
thereafter. If the final passed budget meets NTIA’s request, NTIA would have the ability to fund
an award oversight approach similar to what they have currently implemented.
Given the current budget environment, obtaining additional resources will likely prove
challenging. Furthermore, the possibility exists that the upcoming fiscal year could begin under a
Continuing Resolution. Funding will continue to be an issue in subsequent years, as the
completion date of the last project awarded continues into September 2013, and beyond, if
extensions to the grant period are provided. In particular, resources to fund contractor supported
services—which NTIA relies on heavily—and award monitoring will fall into jeopardy.
Examples of budget considerations include but are not limited to:

      •		 NTIA’s FY 2011 funding situation resulted in reductions in staffing and operations,
          which led to increased workloads for remaining NTIA staff and adjustments to
          monitoring priorities—and contributed to postponed initial site visits (including highest-
          risk awards) during the continuing resolutions.

      •		 Initial site visits—beginning with highest risk awards—required postponement until final
          funding.

      •		 NTIA did not fill all lost staff positions, leading to reassigned FPO responsibilities.
         o		 NTIA’s FY 2012 funding level—if approved for an amount less than originally
             requested—would reduce funding to support monitoring activities such as BTOP
             staffing, site visits, and contractor resources. NTIA heavily relies on contract support
             for BTOP.
         o		 NTIA will need to obtain follow-on support from what Booz Allen Hamilton (BAH)
             provides.
         o		 Uncertainty related to the resource availability for contract work, after completion of
             BAH contract.
While NTIA has developed a reasonable framework for award monitoring, given current
budgetary factors NTIA must develop alternative monitoring strategies. The findings discussed
earlier in this report—related to strengthening monitoring activities, bolstering internal controls,
improving the recipient match process, tracking at-risk projects, and initiating trend analysis—
will help NTIA maximize the use of its resources. NTIA should develop strategies to address
inquiries, investigations, and other issues likely to arise.




                                                    13
 

U.S. Department of Commerce                                                             Final Report


Office of Inspector General                                                        November 17, 2011 



Recommendation
NTIA should identify oversight strategies for different funding levels (e.g., number of site visits
and level of contractor support). These strategies should address any issues likely to arise as
BTOP winds down (e.g., inquiries and investigations), while helping NTIA meet its current
monitoring and oversight needs.




                                                 14


U.S. Department of Commerce                                                             Final Report


Office of Inspector General                                                        November 17, 2011 



                                          Other Issues
During the field work phase of this audit, OIG identified several areas of concern during a
recipient site visit. OIG’s concerns included:

   •		 Financial and procurement management systems, policies, and procedures that were
       deficient; and

   •		 Related internal controls, in particular segregation of duties that were severely inadequate
       or nonexistent.
Additionally, we were equally concerned about unclear organizational structures, roles, and
responsibilities of the recipient, its subrecipient, and its vendors. The concerns warranted the
issuance of a separate memorandum to address those specific concerns and provide OIG
recommendations to remedy the situation. Our office will continue to monitor the progress of
this recipient and others that are determined to be high-risk.




                                                 15
 

U.S. Department of Commerce                                                           Final Report


Office of Inspector General                                                      November 17, 2011 



                   Summary of Agency Comments and OIG Response

In responding to our draft report, the Assistant Secretary for Communications and Information
generally concurred with the recommendations in the report. The response summarizes the steps
NTIA is taking to address the recommendations in the report.
NTIA noted in the response that it has implemented a “rigorous” monitoring and oversight plan
for the BTOP grants to ensure that the projects are completed on time, stay within budget, and
deliver the promised benefits to the communities they serve. Its focus has been on the oversight
of high-risk projects.
NTIA indicated that they will implement report recommendations to the extent budget allows;
several corrective actions have already been taken. NTIA stated that, with regard to “Bolstering
Monitoring Tools’ Internal Controls,” they partially agree with one recommendation. The other
recommendation has already been implemented. After issuing the draft report, OIG met with
NTIA officials, who provided additional information that addressed some of our concerns. As
such, we (1) slightly modified recommendations related to strengthening monitoring efforts, to
be more precise, and (2) eliminated the recommendation for completing a cost–benefit analysis
of PARS to determine whether to maintain the system. Also, the OIG has made some other
minor modifications to the report based on information obtained from NTIA subsequent to the
draft report.
NTIA has already taken steps to strengthen its oversight of BTOP awards and we encourage
NTIA to continue to work with the Department, OMB, and Congress to secure funding to
oversee the BTOP grant awards. We look forward to reviewing NTIA’s action plan that
addresses our concerns in greater detail.




                                               16
 

U.S. Department of Commerce                                                          Final Report


Office of Inspector General                                                     November 17, 2011 



                      Appendix A: Objective, Scope, and Methodology

We initiated this audit in November 2010 as part of our continuing oversight of NTIA’s
Broadband Technology Opportunities Program (BTOP). The objectives of our audit were to (1)
assess the reasonableness of assigned monitoring levels and corresponding monitoring activities;
(2) evaluate the effectiveness of desk reviews; (3) assess the adequacy of site visits; and (4)
evaluate the effectiveness of the processes in place to adjust monitoring levels for specific
recipients.
To satisfy these objectives, we reviewed BTOP compliance with applicable laws, regulations,
policies, and procedures, including:

   •		 The American Recovery and Reinvestment Act of 2009;

   •		 The July 9, 2009 and January 22, 2010 Notice of Funds Availability for the Broadband
       Initiative Program and BTOP;

   •		 Department of Commerce Updated Interim Grants Manual;

   •		 FY 2011 BTOP Monitoring and Assessment Plan; and

   •		 The Federal Program Officer Handbook: Post-Award Procedures, version 2.0.
To gain an understanding of NITA’s monitoring efforts and records management, we reviewed
BTOP monitoring systems, monitoring tools, and interviewed pertinent staff, including:

   •		 The Customer Service Management (CSM) tool;

   •		 The Post-Award Records System (PARS);

   •		 NIST and NOAA grants management personnel; and

   •		 NTIA officials
To review the results of NTIA’s monitoring efforts, we reviewed performance progress and
financial progress reports for background information and judgmentally selected data samples of
infrastructure, public computer center, and sustainable broadband adoptions projects based on
risk profiles and award type for verification from various BTOP sources to review and analyze,
including:

    •		 7 program report reviews;

    •		 10 desk reviews; and

    •		 7 site visit reports
In addition, we supplemented audit work by several OIG staff members who were conducting
two concurrent reviews:




                                               17
 

U.S. Department of Commerce                                                             Final Report


Office of Inspector General                                                        November 17, 2011 



   •		 Motorola/BayWEB BTOP award—OIG conducted an inquiry of NTIA’s management
       of complaints related to the BayWEB project, awarded to Motorola, Inc. for expansion of
       a public safety network in ten counties across the San Francisco Bay Area in California.
       Follow-up work is currently underway.

   •		 Match verification of BTOP awards—OIG is currently reviewing NTIA’s procedures
       that govern the verification of nonfederal match for BTOP awards. OIG staff members
       are analyzing documentation of a selected sample of grant recipients to determine
       whether NTIA has adequately verified federal matching share requirements.
In order to assess the reliability of the data elements significant to our engagement objectives, we
(1) interviewed agency officials who were knowledgeable about the Management Dashboard
Tool (MDT) system, CSM tool, and PARS and its related components and data elements, and (2)
reviewed documentation related to the systems and their related components and data elements.
In testing related to BTOP oversight of recipients we assessed the reliability of Grants Online
and Grants Management Information System by interviewing officials knowledgeable about the
systems and its data and reviewing related reports. We determined that the data were sufficiently
reliable for the purposes of this report.
We performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
We conducted our review from November 2010 through July 2011 under the authority of the
Inspector General Act of 1978, as amended and the Department Organization Order 10-13. We
performed our work at the Department of Commerce headquarters in Washington, D.C.; at NIST
in Gaithersburg, Maryland; at NOAA in Silver Spring, Maryland; and various grant locations
throughout the United States and its territories.




                                                 18
 

U.S. Department of Commerce                                                                                                        Final Report


Office of Inspector General                                                                                                   November 17, 2011 



                        Appendix B: Overview of BTOP Monitoring Model
                                                                 Criteria
            Federal policy (e.g., DOC grants manual)                        NTIA creates policies and procedures based on established laws and 
           and regulations (e.g., Recovery Act, NOFA)                                                   regulations




                                                     Data and Report Reviews
                                                                       NTIA bases templates on procedural requirements and collects data —which
        Various data (e.g., performance progress report, 
                                                                        they transmit and store in systems that interface with Grants Management 
          financial progress report, baseline reports)                                    Information System and Grants Online



                                                           Monitoring Activities
                                                                        NTIA staff review reports and conduct desk reviews and site visits to gather 
          Report reviews,  desk reviews, and site visits                              recipient  financial and performance information




                                                             Results/Findings
                                                                        NTIA staff generates reports based on observations made during recipient 
                      Final site visit report                                                           site visits




                                                  Monitoring Level Adjustment
                                                                       NTIA adjusts monitoring levels, based on the results of site visits, and issues 
                   Adjustment or action plan                                                 any needed corrective actions




                                                                    19
 

U.S. Department of Commerce                                                                                       Final Report


Office of Inspector General                                                                                  November 17, 2011 



                             Appendix C: Response to OIG’s Draft Report


                                                                      UNITED STATES DEPARTMENT OF COMME:RCE
                                                                      The Assist.nt SecNUP'V for Communications
                                                                      and Information
                                                                      Washington. D.C. 20230




                                                                NOV 3       2011
         The Honorable Todd J. Zinser
         fnspector General
         United States Department of Commerce
         140 1 Constitution Avenue, N.W.
         Washington, DC 20230

         Dear Mr. Zinser:

         Thank you for the opportunity to reply to your October 4, 20 11 draft report, NTJA Has an
         Established Foundation to Over.l'ee BTOP Awards, B tu Better Execution ofMoniloring is
         Needed (the Draft Report). I appreciate your office recognizing the significant steps Lhat the
         National Telecommunications and lnfonnation Administration (NTIA) has made in establishing
         a comprehensive monitoring tTamework to ensure effective overSight of the Broadband
         Technology OpportunHies Program (BTOP or the Program), a $4 billion grant program
         authorized by the American Recovery and Reinvestment Act of2009 (Recovery Act). 1 assue
         you that we are taking every appropriate action to address the recommendations described i11 t he
         Draft Report, subject to NTTA' s funding limitations under the current continuing resolution.'

         As the Draft Report notes, NTIA implemented a rigorous monitoring nod oversight plan for
         BTUP g rants to ensure projects are completed on time, stay within budget, and deliver the
         promised bet1etits to the communities they serve. This strategic framework includes a variety of
         elTective tools. processes, and procedures that program officers, managers, and executive
         leadership employ to protect federal funds. The Program established monitoring levels for each
         oft.hc 228 grants to focus oversight activities primarily on high-risk projects-and has already
         inspected documentation and equipment onsitc -..vith I03 projects encompassing $2.715 billioo.
         We also coordinated effectively with the National Oceanic and Atmospheric Ad ministration
         (NOAA) and National Ins titute of Standards and Technology (NIST) Gnmts Offices to suspend
         and tetminate proj ects p roactively before hard-earned taxpayer dollars are wasted.

         We achieved a substantial level of oversight despi te having Iinuted federal staff and budget to
         perform this work. Our o versight plan is both rigorous and cost-effective, with rumual
         administrative expenses representing less than one percent per year of the runount of the total
         g rant portfolio. Thank you for your suggestions on \.vays to improve the administration of
         NTIA's oversight and monitoring of the BTOP portfolio. We note that the initial
         recommendations were revised as a resul t of subsequent discussions between BTOP staff and
         Office of Inspector Gener.U (010) staff. We recognize lhe importance of your recommendat:ons
         and, as I outline below, we are Inking a variety of inunediate steps to address each of them.




         'SeeConlinuing Appropriations Act for FisC<! I Year2012, P. L. 112·36 {2011).




                                                                     20


U.S. Department of Commerce                                                                                    Final Report


Office of Inspector General                                                                               November 17, 2011 



            Page 2 of8


            S trengtltenlllitial aud Follow Up Mo11itorirrg Acti vities

            First, the Draft Report recommends that NTrA revise the BTOP Federal Program Officer (FPO)
            Handbook to provide additional guidance to FPOs for progress report reviews in cases where
            report detai ls are inconsistent with the FPOs' knowledge of a project. As part of their quarter:y
            report desk reviews, FPOs often follow up with recipients with respect to inconsistent
            inf01mation. FPOs also require corrective action, such as performance improvement plans,
            which direct recipients to corTcct issues FPOs discover as part of their regular monitoring
            processes. Nevertheless, NTIA will more fo rmally document a procedure in the BTOP FPO
            Handbook that requires FPOs to follow up on cases where performance reporting data is
            inconsistent with their existing knowledge of an award using appropriate mechanisms such as
            desk reviews or site visits.

            Second, the Draft Report suggests that NTIA revise the FPO Handbook to emphasize the
            importance of diligent follow up to close out unresolved issues. In the Draft Report, the OIG
            indicated that certain Initial Desk Reviews (IDRs) appear to contain a mun ber of unresolved
            issues. NTIA acknowledges that some find ings from its lDRs were not comprehensively trac ced
            or documented when the Program was standing up its post-award processes and procedures. In
            response to most of these issues, FPOs provided oral feedback directly to recipients during
            regular conference calls and also scheduled site visits to address issues in person, since the Site
            Visit Checklist incorporates many of the same issues as the IDR. NTIA also issued extensive
            programmatic gltidance for recipients to follow, such as the BTOP Recipient Handbook and
            various fact sheets (e.g., subrecipient versus vendor, subrecipient monitoring, match valuation,
            Davis-Bacon, fede ral interest, and audits). In addition, NTTA offered webinars and drop-in ellis
            on various compliance issues, including the OIG's February 3, 20 II BTOP webinar on
            subrecipient monitoring. NTIA agrees that FPOs should follow up on any unresolved issues,
            including providing corrective action, as needed. We will therefore provide guidance in the next
            edition of the FPO Handbook on documenting both issues that FPOs uncover during monitoring
            activities and the resolution of those issues.

            Third, the Draft Report recommends streamlining the BTOP Site Visit Checklist to provide ti.rne
            for FPOs to verify source documents. Effective June 1, 20 11 , NTIA streamlined portions of the
            BTOP Site Visit Checklist and modified it to include a list of''Required Documents," indicating
            which documents recipients should be prepared to make available to their FPO. Prior to a site visit,
            BTOP staff reviews this list and selects which documents a recipient should provide so that FPOs can
            spend additional time verifying those source documents. NTIA directs FPOs also to select some
            "Required Documents" at random to ensure that the recipient has key documems available and net
            solely those items that NTIA has pre-selected.

            Finally, the Draft Report recommends that NTlA conduct a training session for r POs on revised
            procedures to ensure consistency in the use of monitoring tools and execution of monitoring
            activities. NTIA agrees with this recommendation and wi ll condltct a training session on any
            additiona l monitoring tools and updated guidance during the fi rst quarter of fiscal year 2012
            (FY12).




                                                            21


U.S. Department of Commerce                                                                                                      Final Report


Office of Inspector General                                                                                                 November 17, 2011 


            Page 3 of 8

            Bolster Monitori11g Tools' lntemal Controls

           The Dmft Report recommends that TlA create a protocol for tl1e use of the Customer Service
            Management (CSM) tool to limit user access, document users, and establish a consistent file­
            naming convention. Tile BTOP CSM tool is a SharePoint product that NTIA uses to capture and
            track major programmatic or project issues; to piOvide background information on issues; and to
            escalate issues to the nccCllsary subject matter expert, team lead, or BTOP leadership for
            resolution. The CSM tool also aUows BTOP to identify key and emerging issues, enabling staff
            to address them proactively. NTlA limits the CSM to users enrolled in the Active Directory,
            which consists of FPOs, team leads, BTOP leadership, and contractor staff. 2 As a result, NT! A
            does not believe an additional security protocol is necessary. NTTA will, however, create a
           .consistent file-naming convention.

            ln addition, the Draft Report suggests that NTTA complete a cost-benefit analysis of the Post­
            Award Records site (PARs) to determine whether to maintain the system. NTIA conducted a
            cost-benefit analysis during the initiation phase of PARs and detennined that the benefits to
            develop and deploy a collaborative site exceeded the costs. Under this analysis, NITA fo und that
            PARs requires minimal maintenance of approximately two hours per month. NTlA generally
            conducts this maintenance as part of a larger system upkeep effort for the BTOP SharePoint
            platform (i.e., Post Award Management system, Management Dashboard Tool). Because PARs
            serves as a SharePoint-based repository for all post-award documentation, NTIA views the
            availability of PARs as cost-effective and necessary to conduct our work. FPOs can use PARs
            while on site visits or teleworking, and staff who work outside of the Commerce Department
            main building, including contractor support, are also able to access PARs remotely. PARs also
            contains version control for aU docwnents uploaded to the site to allow users to access the latest
            document and to retrieve previous versions seamlcssly. f inally, PARs contains conh·ols sim ilar
            to those noted for CSM above, includi ng limited user access to the site.

            Contitme to Jmprove Recipient Match Review Processes

            The Draft Report also recotnmends that NTTA prepare guidance for FPOs to use in reviewing
            recipients' match requirements during site visits. The existing BTOP site visit package for
            awardees includes questions regarding recipient's match, as well as the valuation of recipient
            contributed or in-kind match. Further, the current Site Visit Checklist contains questions that
            FPOs usc to review recipient's match requirements.

            NTIA, however, will revise its site visit package to include requests for documentation
            supp01ting match valuation. To the extent that NTIA identifies match concerns as part of the
            program's regular oversight, we will also seek additional match information for specific cases, as
            needed.

            2 The Active Directory is a directory service that lierves as a cem:ral location for network administration and
            security. It is responsible for authenticating and authorizing all users and computers within a network, assigning and
            enforcing security policies for all computers in a network, and installing or updating software on network
            QOmputcrs. When a user logs into a computer that is part of a Windows domain, it is the Active Directory that
            verifies the user"s password and specifies whether he or she is a system admiuistrator or nom1al user.




                                                                      22


U.S. Department of Commerce                                                                                           Final Report


Office of Inspector General                                                                                      November 17, 2011 



            Page 4 of8


            Develop Strategy for Tracking Projects tllat Risk Missing tile Tltree-Year Completion Date

            First, the Draft Report recommends that NTIA work with recipients at risk of fai ling lo comply
            with their awards' progress and completion requirements to develop action p lans outlini ng
            revised completion dates that recipients can meet. NTIA concurs with the finding in the Draft
            Report and is taking several actions to implement this recommendation.

            BTOP staff regularly evaluates the progress of each project against the completion goals
            established in its award and baseline projections. As perfOJmance reports are received for
            recipients each quarter, Program staff evaluates report data to consider whether projects are
            ahead, behind, or .in-line w ith their schedules, based on several dimensions:

                •   Federal expenditures
                •   Match expenditures
                •   Progress against applicable Key Performance I ndicators (Network M iles, Commw1ity
                    Anchor institutions Con11ected, Public Computer Center Workstations, Sustainable
                    Broadband Adoption Subscribers)

            In addition, BTOP staff assesses the progress of recipients from their quarterly perfonnance
            reporis against the milestone targets established in th eir baseline projections. These assessments
            provide a more granular view of proj ect activities to aid Program staff in diagnosing progress
            and trends. In cases where BTOP stafT identifies a risk, the f .PO addresses the concern with the
            recipient and reports back o n the recipient's activities to mitigate the risk (e.g., parallel
            construction activities, hiring additional personnel).
            Second , the Draft Report recommends that NT!A develop alternative strategies for those projects
            that will not satisfy their award tenns, includi1,g project extensions or rescoping of projects.
            Given recent guidance from the Office of Management and Budget (OMB), NTIA is not
            currently considering grant recipient requests for extensions.3 NTIA will evaluate the ability of
            recipients to complete their projects within the award period and consider whether corrective
            action is necessary to ensure recipients comply with grant tem1s and conditions as described in
            their awards.

            Initiate a Formal Trend A 11alysis Process for BTOP Grant Portfolio

            The Draft Report recommends that NTlA incorporate continuous trend analysis activities into its
            award monitoring process. This fmding is based partially on a s uggestion made to NTIA staff in
            May 20 ll that BTOP conduct a trend analysis of site visit findings and best practices at the
            conclusion of the Program 's first round ofBTOP site visits. Since OIG originaiJy made that
            suggestion, NTIA has undertaken trend analysis of site visit results and has continually analyzed
            trends across the program and provided such reports to 010.

            Since NTlA began its monitoring efforts, we have conducted trend analyses and proactively
            engaged in ongoing performance monitoring and a portfolio review ofBTOP projects. NTIA's

            3
             See Office of Management and Budget Memorandum 11-34, Acceleroling Spending of /lemaining Funds from :Ire
            American Reco••ery and Reinveslmenl Actfor Discr-elio11aty Gt·a/Jt Programs (Sept. LS, 20 t l).




                                                                23


U.S. Department of Commerce                                                                                    Final Report


Office of Inspector General                                                                               November 17, 2011 



           Page 5 of8


           eiTorts include a data analytics team that performs weekly, monthly, and quarterly analyses to
           track recipient performance and to identify trends among grunt recipients, monitming activities,
           and report procedw·es. The team also engages in one-time analyses to identify new trends and
           information. This information is used by senior management and executive leadersh ip for two
           purposes: (I) to assess whether NTlA has properly allocated its resources; and (2) to determine
           what cotTective action might be appropriate to ensure recipients' continued compliance with
           grant terms and conditions.

           The table below indicates the types of repotts that the team delivers, as well as the audience for
           each report.

                                                                      One
             Analysis/
                                        Contents                     Time/      Period              Audience
              Review
                                                                   Recurring_
           BTOP Weekly • Drawdown Status by Portfolio              Recuning   Weekly            BTOP
           Status Report • EHP Status                                                           Leadership
                         • S ite Visit Status by Portfolio                                      Team
                         • Match Review Process Status
                           by Portfolio
                         • Status of Potential CCI
                           Overlap Occurrences
                         • Audit Status by Portfolio
           BTOP CCl& • Federal Expenditure Quarterly               Recurring   Weekly           CCI&
           PCC/SBA         Trend Analysis                                                       PCC/SBA
           Team Lead     • Key Perfonnance Indicator                                            Leadership
           Workbooks       (KPI) Trend Quarterly                                                Team
                           Analysis
                         • Drawdown Trend Analysis
                         • Special Award
                           Condition/Amendment/AAR
                           Progress
                         • Program Income Analysis
           Portfolio     • Recipient Drawdown Analysis             Recurring   Weekly           CCI&
           Drawdown        by Portfolio                                                         PCC/SBA
           Analysis                                                                             Leadership
           Report                                                                               Team
           BTOP          • Overview of recipients'                 Recurring   Quarterly        BTOP
           Portfolio       quarterly pe1fonnance                                                Leadership
           f ederal        compared to Federal                                                  Team
           Expenditure &   Expenditure and KPI
           Key             baselines, as well as Match
           Performance     requi rements
           Indicator     • Analysis of recipient
           Analyses        performance trends across
                           quarters
                                                                                                    -




                                                            24


U.S. Department of Commerce                                                                           Final Report


Office of Inspector General                                                                      November 17, 2011 



            Page 6 of8


                                                                    One
              Analysis/
                                       Contents                    Time/     Period         Audience
               Review                                            Recurring
            EA              • Overview of recipient              One-Time One-Time       CCI Leadership
            Construction      construction schedule delays                               Team
            Delay             resulting from EA requirement

            Recipient       • Status of recipient compliance     Recurring   Quarterly   BTOP
            Report            with Federal quarterly                                     Leadership
            Submission        reporting requirements                                     Team
            Status
            CCI Post       • Overview of CCI recipient           Recurring   Quarterly   CCI Leadership
            FONSI            Federal Expenditure trends                                  Team
            Analysis         during time period following
                             FONSI receipt
            BTOP           • Analysis of quarterly recipient     Recurring   Quarterly   CCI &
            Recipient Cost   spendin g per j ob created                                  PCC/SBA
            Efficiency       across each key performance                                 Leadership
            Analyses         indicator
            BTOP Weekly • Overview ofP011folio-wide              Recurring   Weekly      BTOP
            Issues Report    Emerging Recipient Issues,                                  Leadership
                             Recipient Organizational                                    Team
                             Capacity lssues, and Other
                             Issues provided for leadership
                             awareness
            BTOP Proj ect • Review of anticipated project        One-Time    One-Time    BTOP
            Completion       completion dates and                                        Leadership
            Analysis         necessary adjustments due to                                Team
                             project delays
            BTOP Ahead- • Overview of recipient                  Recurring   Quarterly   BTOP
            InLine-Behind    quarterly deviation from                                    Leadership
            Analysis         baseline plans and match                                    Team
                             requjrements by Portfolio
            Recipient      • Analysis ofBTOP Recipient           Recurring   Qua11erly   BTOP
            Reprojection     reprojection accuracy each                                  Leadership
            Analysis         quarter                                                     Team
                                                                                                    -
            Two-Thirds     • Overview of BTOP Recipient          One-Time    One-Time    BTOP
            Completion       2/3rds-complete dates and                                   Leadership
            Analysis         anticipated progress by that                                Team
                             date
            Financial      • Analysis of recipient               Recurring   Qua11erly   BTOP
            Alignment        expenditure reporting                                       Leadership
            Report           variances across ARRA, PPR,                                 Team
                             and FFR auarterly reports




                                                          25


U.S. Department of Commerce                                                                                    Final Report


Office of Inspector General                                                                               November 17, 2011 


            Page 7 of8


            In addition, the d ata analytics team engages in weekly communications with the BTOP
            operations staff (FPOs and contractor support stafl). First, data analytics team members work
            with the operations and leadership teams to understand their challenges and needs, to identify
            new reports or analysis to support their activities, and to document concerns about recipient d ata
            or deliverablcs. In addition, the data analytics team pushes information out to the operations and
            leadership teams. This includes reporting deliverables, d iscussion of emerging trends,
            inconsistencies, and emerging issues on recipient data. This regular interaction ensures that
            reports and analyses are aligned with the Program's needs. It also facilitates "data calls," for
            which new information from BTOP staff or recipients is needed to evaluate or respond to an
            emerging issue.

            MIIXimize Resources for Mo11itori11g BTOP Awards

            The Draft Report recommends that NTIA identify oversight strategies for different funding
            levels (e.g., number of site visits, level of contractor support). NTIA received an additional
            $19.8 mil lion in fiscal year 2011 (FYI I) for costs associated with the Broadband Programs
            authorized under the Recovery Act. This funding, along with ongoing contract services
            supported with the prior year's funding, allowed NTIA to implement a sound grants oversigh t
            and technical s upport plan for FY II. N11A continues to evaluate the impact that various
            funding scenarios may have on its ability to monitor and admirustcr the DTOP during FY12 and
            beyond. NTIA staff has prioritized BTOP monitoring and administration activities, identifying
            tasks and eff011s that would need to be curtailed or eliminated for certain funding scenarios, as
            weU as the risks associated with such cl1anges to current activities. N"n A wi ll continue to
            evaluate those plans over time and adjust its grants oversight and tecbnic.al S\lppon as our
            specific funding level becomes known.

            For FYI2, NTIA is working with the Department of Commerce (DOC), OMB, and Congress to
            continue to secure funding for BTOP and its monitoting and oversight activities. In addition,
            NTIA continues to evaluate its various monitoring actions, including monitoring calls, desk
            reviews, and site visits under various staffing and budget scenarios. NTIA developed the FYI!
            BTOP Monitoring Plan using a risk and resource-based approach. NTJA is in the process of
            modifying the B TOP Monitoring Plan for FY 12. NTIA anticipates having to prioritize or reduce
            morutoring activities under ce11ain funding scenarios and will implement any such changes using
            a risk-based approach. NTTA conti nues to believe that our funding request is a cost-effective
            means to protect over $4 billion in taxpayer investments in our future infrastructure needs.
            Without adequate resources, hard-earned taxpayer fu nds are put at risk because NTIA wi ll not
            have the means necessary to oversee these complex and large-scale initiatives. A single proj ect
            fa ilure would cost the taxpayers more than NTIA 's proactive investment in sU'ategic and risk­
            based monitoring. Adequate oversight remains necessary to ensure a robust rellu·n on investment
            in the benefits these projects, when complete, will provide to communities across the nation.




                                                             26


U.S. Department of Commerce                                                                                      Final Report


Office of Inspector General                                                                                 November 17, 2011 



            Page 8 of8


            I look forward to continuing to work with you as NTIA carries out this important program to
            expand broadband capabilities in the United States, create jobs, and lay a new foundation for
            economic growth in America. IfNTIA may be of further assistance, please contact Milton
            Brown, NTIA's Liaison to the OJG, at (202) 482- 1853.




                                                                   Lawrence E. Strickling


            cc:    Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation
                   Anthony Wilhelm, Deputy Associate Administrator, Office of Telecommunications and
                   Information Application, NTIA
                   Milton Brown, NTIA Audit Liaison
                   Katie McKevitt, Project Lead, Recovery Act Task Force, OTG
                   Chris Rose, Senior Auditor, Recovery Act Task Force, OIG
                   Aimee Meacham, NTIA




                                                            27


